<html>
<title> - [H.A.S.C. No. 115-13] AN INDEPENDENT FLEET ASSESSMENT OF THE U.S. NAVY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 115-13]

            AN INDEPENDENT FLEET ASSESSMENT OF THE U.S. NAVY

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 8, 2017


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
25-045                    WASHINGTON : 2018                 











                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
                Dave Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Jodi Brignola, Clerk


















                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     3
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     1

                               WITNESSES

Banerjee, Dr. Sunoy, The MITRE Corporation.......................     7
Clark, Bryan, Senior Fellow, Center for Strategic and Budgetary 
  Assessments....................................................     6
Werchado, Charles P., Deputy Director, Assessment Division (OPNAV 
  N81B)..........................................................     4
Wilson, RADM Jesse, Jr., USN, Director, Assessment Division 
  (OPNAV N81)....................................................     3

                                APPENDIX

Prepared Statements:

    Banerjee, Dr. Sunoy..........................................    59
    Clark, Bryan.................................................    50
    Courtney, Hon. Joe...........................................    36
    Werchado, Charles P..........................................    44
    Wilson, RADM Jesse, Jr.......................................    38
    Wittman, Hon. Robert J.......................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    70
    Mr. Langevin.................................................    69










            AN INDEPENDENT FLEET ASSESSMENT OF THE U.S. NAVY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                          Washington, DC, Wednesday, March 8, 2017.
    The subcommittee met, pursuant to call, at 3:42 p.m., in 
room 2118, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. I call to order the Subcommittee on Seapower 
and Projection Forces of the House Armed Services Committee.
    I want to thank all of our witnesses for being here today 
for the Seapower and Projection Forces Subcommittee hearing.
    As this is our first subcommittee hearing, I just want to 
say that I look forward to engaging all of our members on what 
I believe is the bipartisan committee in Congress, and I 
especially look forward to working with my ranking member, 
colleague, Joe Courtney, and plotting a path forward to meet 
the requirements for our armed services, so Joe, thanks again. 
Thanks for your service, and thanks for your leadership. I 
really appreciate that.
    Two weeks ago we held a classified briefing with Rear 
Admiral Wilson in regard to the Navy's 2016 Force Structure 
Assessment. The Force Structure Assessment assumed that the 
future plans for the Navy in ship types and numbers of ships 
would continue with ships of similar capacity that serve in the 
fleet today. This afternoon we transition from looking at the 
Navy's Force Structure Assessment to considering three separate 
future fleet architecture studies. These three studies were 
directed by Congress and completed in recent months. These 
three fleet architecture studies take a different tact and 
consider what the composition of the fleet could be in the 
future. Some of their proposals include new ship classes, 
increased usage of unmanned vehicles, and redesigned ship 
configurations, just to name a few.
    We turn to three independent experts to provide more 
details on alternatives to the Navy's proposed force structure. 
I hope during the course of this hearing we can discuss options 
that Congress could pursue to meet those Navy requirements. I 
think there is broad agreement with the Navy and the three 
independent studies on several themes.
    First of all, the Navy today is insufficient to address the 
challenges of tomorrow. I think everyone would agree that the 
274 ships of the Navy fleet today are insufficient for a 
variety of reasons and lead to a variety of bad alternatives, 
including most prominently, aircraft carrier gaps.
    I also believe there is general agreement that the future 
conflict will reside in a contested environment requiring 
additional large surface combatants in more robust weapons. 
Advancements in naval gunfire with the electromagnetic railgun 
and hypervelocity projectile are essential to getting on the 
right side of the cost curve. I also believe that all the 
studies agree that the United States has an asymmetrical 
advantage in the undersea domain. Maintaining this advantage 
will require increasing the build rate of the Virginia attack 
submarine and introducing the Virginia payload module into the 
next block of attack submarines.
    While I believe the research and development community has 
done a great job with developing unmanned underwater vehicles, 
I also think it is time to down-select to specific systems and 
rapidly deploy these capabilities throughout the fleet.
    As to small surface combatants, I believe that there is 
general agreement on expanding the capabilities associated with 
a littoral combat ship. The Navy concluded a small surface 
combatant task force that determined the requirements for the 
frigate. However, I believe that we need to take a closer look 
at these requirements. I look forward to better understanding 
capabilities that our witnesses believe should be incorporated 
into the frigate.
    I also see our amphibious force with its complement of 
Marines as vital to the ability of our Nation to deter 
aggression. As we look to rebuild our Navy, we must ensure that 
our Marine Corps also remains a large part of our plans. I look 
forward to hearing how the L-class ships that make up our 
amphibious readiness groups, our ARGs, can be used in the 
future.
    As to our preeminent strike capability, the aircraft 
carrier, I believe that there is general agreement that we need 
to expand this capability but continue to reduce costs 
associated with the Ford-class aircraft carrier. I do not 
believe any members of this subcommittee are willing to accept 
an almost $13 billion unit cost for the USS Gerald R. Ford, and 
efforts need to be taken to reduce overall costs. I look 
forward to options that our witnesses could offer to make the 
Ford-class more affordable, and finally, I look forward to our 
witnesses better describing the communications challenges that 
are expected in a contested environment and options to address 
these concerns.
    I would like to welcome all of our members in the 
distinguished panel of experts we have with us today. This 
afternoon we have with us Rear Admiral Jesse Wilson, Jr., 
Director, Assessment Division, OPNAV N81; Mr. Charles Werchado, 
Deputy Director, Assessment Division, OPNAV N81B; Bryan Clark, 
Center for Strategic and Budgetary Assessments; and Dr. Sunoy 
Banerjee, MITRE Corporation.
    Thank you all for testifying today, and we look forward to 
your thoughts and insights on the fleet, architecture 
alternatives, and other critical pieces of information.
    I would now like to turn to our ranking member, Joe 
Courtney, for any remarks that he may have.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 33.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman, and again 
congratulations on your selection as chairman of this 
committee, which again is a great committee. We have really 
made a difference over the years. Your long years of work on 
the committee, as well as your command of the subject, I think 
really make you the right guy for the job, and I look forward 
to working with you as well.
    I think we have a great team on both sides of the aisle, 
and obviously this could be a real sort of historic year given 
the topic that we are going to discuss this afternoon. It is 
the question of the day, obviously the Force Structure 
Assessment that was produced last year and obviously all the 
force architecture work that these witnesses were involved in.
    So in an effort to sort of get to the heart of the matter, 
I have opening remarks which is in writing. I am going to ask 
that it be submitted for the record, and, again, let's just 
jump right into it and hear from our great witnesses.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 36.]
    Mr. Wittman. Very good. Thank you, Mr. Courtney. We will 
now go to our witnesses. Begin with Rear Admiral Wilson.

STATEMENT OF RADM JESSE WILSON, JR., USN, DIRECTOR, ASSESSMENT 
                      DIVISION (OPNAV N81)

    Admiral Wilson. Good afternoon.
    Mr. Chairman, Ranking Member Courtney, and distinguished 
members of the subcommittee, I appreciate the opportunity to 
testify on the future fleet architecture studies that were 
conducted in accordance with the fiscal year 2016 National 
Defense Authorization Act, or the NDAA.
    Three independent studies for a future fleet architecture 
in the 2030 timeframe were conducted, and the leads of each 
team are here today to brief the findings of their studies. The 
Navy-led project team, MITRE's National Security Engineering 
Center, and the Center for Strategic and Budgetary Assessments. 
These studies are a starting point in the analysis that the 
Navy will use to develop our future fleet architecture and 
design.
    None of them, including the Navy project team study, has 
been endorsed by the Chief of Naval Operations as a 
comprehensive solution set to focus our future fleet 
development. We will continue to incorporate what we have 
learned from them into our ongoing research and development and 
rapid fielding, our war-gaming, experiments, concept 
development, and strategic thinking. They will contribute to 
the high-velocity learning that is necessary to strengthen our 
naval power to outpace our pure competitors and future threats.
    All three studies were based on a 2030 strategic 
environment defined by the reemergence of great power 
competition and the growing availability of high-end 
warfighting capabilities designed to counter U.S. military 
advantages. While each entity conducted its study 
independently, generated its own assumptions, and performed its 
own analysis, several common themes emerge across the three 
studies. We are examining these themes and ideas thoroughly.
    Some of the recommendations in the studies will be acted 
upon or acted upon more quickly than was already being planned. 
Some recommendations show promise and will need further 
analysis and exploration. These studies are part of a larger 
effort to inform and focus our future fleet development efforts 
in order to identify the most promising insights from each 
study for inclusion in our future force plans and capability 
decisions.
    Further analysis will need to be conducted, informed by 
both the studies and future operational concepts, to determine 
optimum fleet size, mix, and required resourcing over time. The 
Navy looks forward to working with the Congress and others to 
achieve the maritime superiority the Nation needs today and in 
the future in order to defend the American people and promote 
global security and prosperity.
    Thank you and I welcome your questions.
    [The prepared statement of Admiral Wilson can be found in 
the Appendix on page 38.]
    Mr. Wittman. Thank you, Rear Admiral Wilson. Thanks so much 
for your opening statement.
    Mr. Werchado.

 STATEMENT OF CHARLES P. WERCHADO, DEPUTY DIRECTOR, ASSESSMENT 
                     DIVISION (OPNAV N81B)

    Mr. Werchado. Thank you, Mr. Chairman, Senior Ranking 
Member Courtney, and distinguished members of the panel.
    I appreciate the opportunity to testify on the results of 
the Navy project team future fleet architecture study. I led 
the project team with participants from across the Navy as the 
senior Navy analyst and not as the Deputy of the Assessment 
Division. This is not an official Navy study. It was 
independent by design and does not represent an official Navy 
position.
    Although this study is focused on the architecture of a 
future fleet, it also explores how that fleet might be used, 
including alternative concepts of operations. The study was 
conducted with the goal of defeating a near-peer competitor 
with a robust anti-surface capability, while also deterring 
another threat actor in any theater. The project team designed 
a distributed fleet architecture which would allow the Navy of 
the future to accomplish its missions, providing strong and 
sustained forward presence to influence geopolitical events, 
respond to crises, reassure allies, and deter potential 
aggressors.
    The distributed fleet was conceived to deliver decisive 
combat power as part of a joint force to defeat U.S. 
adversaries if deterrence fails. It was developed as an 
asymmetric response to adversaries increasing reconnaissance 
strike capabilities that can find, track, and target our 
centers of gravity, including large naval formations. By 
distributing our firepower, we challenged the enemy with up to 
10 times the number of combat nodes that can strike them and 
attack axis against which they have to defend.
    The distributed fleet would encompass a widely dispersed, 
robust network of air, surface, and sub-surface platforms 
capable of delivering both kinetic and nonkinetic effects 
employing three mutually supporting concepts of operations: 
Distributed Fleet Lethality, Electromagnetic Maneuver Warfare, 
and Distributed Agile Logistics. The distributed fleet would 
enable a greater reliance on strikes from combat nodes beyond 
the carrier strike group freeing more carrier air wing assets 
to focus on surveillance, targeting, and electronic attack.
    The robust information sharing environment enables us to 
engage enemy platforms before they can attack, reducing 
defensive weapons requirements and allowing more offensive 
weapons to be deployed. Priority was given to long-range 
weapons for sea control in a contested area as well as multi-
mode weapons capable of striking a variety of targets to 
maximize mission flexibility and ship loading. The concept 
would deploy unmanned air vehicles extensively on platforms to 
give ships the ability to conduct organic targeting at long-
range employing advanced weapons, something the current fleet 
cannot do. It would also call for the development and fielding 
of armed, unmanned surface vehicles transported by and deployed 
from ships that have well decks to further distribute shooters 
within the theater.
    Additionally, the concept would expand the use of unmanned 
underwater vehicles to provide theater commanders with the 
ability to deploy sensors and weapons into areas that are 
currently denied.
    Accelerating development and fielding the capabilities for 
electromagnetic maneuver warfare allow the future Navy to 
deliver the assured communications that is required to net the 
fleet and enable kill chains while reducing our dependence on 
military satellites. It will also accelerate the fielding of 
key capabilities to counter adversaries' surveillance and 
targeting systems, improving fleet survivability, and deliver 
improved electronic warfare systems to better protect both 
ships and aircraft.
    Finally, distributed agile logistics enables the 
distributed fleet by sustaining combat operations in a 
contested environment. The U.S. Navy has not had to do this 
since World War II. It shifts reliance from vulnerable shore 
bases to more survivable afloat and expeditionary hubs. It 
would also improve the Navy's ability to conduct maintenance 
and reload weapons at sea.
    Given the service life of today's ships and aircraft, 75 
percent of the fleet today will still be operating in the year 
2030. Adding to the years or even decades required to design, 
build, and field new platforms, the Navy must look beyond fleet 
architecture to new operational concepts to rapidly address and 
defeat emerging threats. Implementing the distributed fleet 
represents a far greater opportunity to effect change. 
Increasing lethality can be achieved by distributing strike 
forces, including unmanned.
    Maneuver warfare provides an assured network and 
communications system able to provide robust kill chains while 
denying the enemy their targeting. These distributed lethal 
nodes make every platform a sensor, shooter, or communicator, 
or some combination of the three.
    The Navy meets current and anticipates future threats and 
will continue to innovate, adapt, fight and win. This study 
developed a new concept, the distributed fleet, as a fleet 
design architecture to beat the future threat.
    I welcome your questions.
    [The prepared statement of Mr. Werchado can be found in the 
Appendix on page 44.]
    Mr. Wittman. Thank you, Mr. Werchado. Now we will go to Mr. 
Clark.

 STATEMENT OF BRYAN CLARK, SENIOR FELLOW, CENTER FOR STRATEGIC 
                   AND BUDGETARY ASSESSMENTS

    Mr. Clark. Chairman Wittman, Ranking Member Courtney, and 
distinguished members of the committee, thank you very much for 
having us here today to testify on this very important and 
timely subject, as you mentioned.
    I wanted to make five main points regarding the fleet 
architecture study that we conducted at CSBA. First, as Admiral 
Wilson mentioned, great power competition is going to be the 
defining feature of the security environment that we are 
looking at here, which is the 2030s. China and Russia already 
have the desire to pursue objectives in their near abroad and 
accrete influence and territory, and in that timeframe they are 
likely to have the capabilities to be able to pursue those 
objectives with a pretty high degree of aggression.
    We are also going to face regional powers that have the 
ability to use the capabilities that great powers might convey 
to them like long-range missiles and long-range surveillance 
systems and exploit their geographic advantage, so you think 
about a country like Iran or a country like a North Korea. 
Their geographic position combined with longer range weapons 
and sensors enables them to punch above their weight, if you 
will.
    The second is the emergence of this great power competition 
is going to put the onus on us to deter conflict with those 
great powers. A great power war, if we think about 
historically, could have damaging and potentially catastrophic 
consequences for ourselves and for the global economy, as well 
as our allies. So we are going to have to think about deterring 
those kinds of conflicts and not just fighting them. If we get 
into a position of having to fight a China or fight a Russia in 
a large-scale conflict, then we have probably signed ourselves 
up for a very damaging set of consequences.
    The fleet architecture that you would need to deter those 
potential adversaries is a little bit different potentially 
than what you might use if you were simply looking to fight 
them in some kind of scenario that we had developed arbitrarily 
in advance. So we have got to think about how a fleet 
architecture is prepared to deter conflict and then if 
deterrence fails, shift to be able to actually fight that 
conflict. And those might be two different things, so we need 
to carefully think about that.
    The third main point is because of this and because the 
objectives of these adversaries, if you think about the Baltics 
for Russia, or Taiwan for China, or the Senkaku Islands for 
China, they are all relatively close to those countries. They 
are all relatively close at hand, and it wouldn't take very 
long for them to begin an act of aggression against them and 
even culminate it before U.S. forces and those of our allies 
would be able to arrive to stop them.
    So our forces, our naval forces in particular, are going to 
have to be able to persist, survive, and then fight in these 
highly contested environments near the adversaries' territory, 
thinking about the South and East China Seas when it comes to 
China or potentially the Baltic or certainly the North Atlantic 
when it comes to Russia.
    This is going to drive us, and that is my fourth point, to 
new operational concepts and new capabilities that enable our 
forces to be able to survive in these high-threat environments. 
This gets to ideas like Mr. Werchado brought up of distributed 
forces, new concepts for electromagnetic maneuver warfare, and 
undersea warfare that enable us to operate inside environments 
where the adversary can find us relatively easily and certainly 
attack us with large salvos of missiles. The new concepts are 
necessary for that, and we need to equip the force to be able 
to conduct those operational concepts, and that is in large 
part what our study was designed to do, is describe that.
    Our force packages that emerged from those operating 
concepts are designed to be able to combine manned and unmanned 
systems, autonomous unmanned systems, and those in manned 
platforms to be able to conduct long-range sensing or counter-
ISR [intelligence, surveilliance, and reconnaissance] 
operations, and conduct long-range strike with a distributed 
force that allows a force with a large number of distributed 
platforms to be able to have the same kind of firepower as we 
would get from a traditional carrier strike group for example.
    The fifth point I want to bring up is that this more 
improved fleet and the fleet that is capable of deterring great 
power conflict in the 2030s is going to be larger than today's 
fleet and more expensive. Our study found that the 340- to 380-
ship Navy we believe we need is going to cost 15 to 20 percent 
more to buy, to maintain and operate, and to man than today's 
fleet. So we need to be prepared for the fact that entering 
into a great power competition and being able to win or at 
least sustain an advantage in that competition is going to be 
more expensive.
    And so I look forward to your questions. Thank you very 
much.
    [The prepared statement of Mr. Clark can be found in the 
Appendix on page 50.]
    Mr. Wittman. Thank you, Mr. Clark.
    Dr. Banerjee, I want to welcome you here today. I know that 
your wife and your mother has accompanied you today. I want to 
welcome you all, too----
    Dr. Banerjee. Mother-in-law.
    Mr. Wittman. Mother-in-law. I am sorry; mother-in-law, got 
you. We will get it straight. My apologies.
    Dr. Banerjee, thank you so much for joining us today, and 
welcome, and we look forward to your testimony.

     STATEMENT OF DR. SUNOY BANERJEE, THE MITRE CORPORATION

    Dr. Banerjee. Thank you.
    Chairman Wittman, Ranking Member Courtney, and 
distinguished members of the committee, I appreciate the 
opportunity to testify on the findings and recommendations of 
The MITRE's future fleet architecture. Congress directed the 
Secretary of Defense to perform three independent studies of 
alternative fleet----
    Mr. Wittman. Dr. Banerjee, if I could get you to move the 
mike just a little bit closer to you. It is a big room; we want 
to make sure everybody can hear you.
    Dr. Banerjee. Sorry.
    Mr. Wittman. Thank you. No problem.
    Dr. Banerjee [continuing]. Alternative future fleet 
platform architectures for the Navy in the 2030 timeframe. The 
MITRE Corporation's National Security Engineering Center and 
FFRDC [federally funded research and development center] was 
asked to deliver one of the three studies. MITRE conducted the 
study over a 4-month period and delivered the final report 
consisting of a 70-page unclassified report and a 30-page 
classified annex on July 1, 2016.
    MITRE recommended a 322-ship fleet in 2030 built around 
three major themes. The first, improving missile defense 
capabilities through the fielding of the hypervelocity 
projectile in the existing 5-inch deck guns in the surface 
force and an aerial layer missile system to be deployed within 
the carrier air wings to deal with more advanced missile 
threats. Our preliminary campaign modeling suggests these two 
innovations significantly improve the survivability of the 
naval force.
    Second, improving the long-range strike through fielding of 
new supersonic cruise missiles and ballistic missile 
capabilities into the surface and submarine force. These 
capabilities enable the naval force to project power while the 
carrier force is maneuvering into striking range for the 
carrier air wing.
    Third, increase force size while controlling costs via a 
high-low mix of platforms. The MITRE analysis recommended a 
missile defense innovations to improve the effectiveness of the 
existing surface force through a mix of Aegis surface 
combatants, which is the high end, a new fast frigate design 
built around the hypervelocity projectile in the 5-inch deck 
guns. That is the medium-end capability. And the low end is a 
magazine ship, so this is a container ship that has large 
numbers of VLS [vertical launching system] cells to augment the 
existing magazines and capacity of the surface force.
    The cost savings from these alternative mixes of platforms 
were used to buy an additional 5 Virginia-class nuclear attack 
submarines, which is a high-end capability, and 14 air-
independent propulsion attack submarines, which would be a 
conventional submarine that would be a medium-end capability to 
significantly increase the size of the surface force--or of the 
submarine force.
    The study tasking emphasized the numbers and types of ships 
and submarines needed by the future force. However, this force 
also requires new sets of weapons, sufficient number of modern 
aircraft, resilient C4I [command, control, communications, 
computers, and intelligence] systems, integration of both 
kinetic and nonkinetic effects and undersea enablers to be 
effective. A balanced investment across not only shipbuilding 
but all these other additional factors is required for the 
naval force to improve both its capacity and its capability to 
deter aggression in the future.
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Banerjee can be found in the 
Appendix on page 59.]
    Mr. Wittman. Thank you, Dr. Banerjee. We will now go to Mr. 
Courtney to begin our questions.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you to all 
the witnesses for your testimony this afternoon.
    Again, obviously there is a lot of overlap in terms of the 
different studies that all of you conducted, as well as Admiral 
Richardson's Force Structure Assessment. And, you know, 
obviously we live in a different sort of realm in terms of 
increments of 1-year budget cycles and 2-year terms.
    And so when we are looking at a target of 2030 to get to 
the numbers which--again, let's just sort of stipulate you all 
have the same number at the end of the day--if you were sort of 
advising Congress in terms of a short-term to-do list, mid-
term, middle-term, medium-term to-do list, and a long-term, as 
far as, you know, how we get there, and I just sort of in terms 
of where we focus our authorizations and appropriations, I 
think that would be very helpful for the members here to just 
kind of, like I said, focus it in terms of the task ahead in 
terms of the Congress.
    And, again, if anyone wants to jump in first or just go 
right across the table, whatever you are comfortable with.
    Admiral Wilson. Ranking Member Courtney, I will start.
    Let me first say that we have already talked about the 
Force Structure Assessment and the 355-ship Navy that that 
directed or the results of that study resulted in. To 
accelerate to a point that we feel we need to get to, and the 
future fleet architecture three studies, are the results from 
them, there are ongoing efforts right now to build a path to 
accelerate with existing industrial-based capacity that we know 
we can already ramp up with. And that information will be 
coming out soon.
    So we know we need to grow the force. We know we need to 
grow it to 355 right now with existing platforms and ways of 
fighting. So to get the rudder over, so to speak, we will start 
building a path to start ramping up as rapidly as we can where 
we know we can get started right away.
    Mr. Werchado. Thank you. Ranking Member Courtney and Mr. 
Chairman, in the interest of domestic harmony, I would like to 
point out that my lovely wife is here as well.
    Sir, my recommendation would be to go for a capability over 
platform. Naval weapons have gotten so long range, so precise, 
and so lethal, that in hundreds of studies that Admiral Wilson 
and I run a year for the Navy, what really comes out strongly 
is that it is the battle of the first salvo.
    Naval forces by their nature are mobile, and therefore they 
have to be targeted to be hit. And so whichever side completes 
that targeting kill chain first and fires first almost always 
wins. So I would make my investments in counter-C4ISR. Where is 
our decoy ship? Where is our electronic warfare to create false 
targets? Let's make us hard to find while we make ourselves 
more capable of finding them.
    I think if we make the investments in the counter-C4ISR 
realm, there are going to be higher payoff first. We have lots 
of cruise missiles. We can use them. We have lots of VLS cells 
on the combatants, but we need to be able to complete the 
targeting chain to make them effective.
    Mr. Clark. Congressman, a couple of things I would say in 
the near term are, just like Mr. Werchado was saying, we need 
to invest in the unmanned vehicles that are going to be the 
things that carry around these payloads of counter-C4ISR 
systems or sensors to be able to enable things like distributed 
lethality.
    So investing in and buying new extra-large unmanned 
undersea vehicles, buying new large unmanned surface vehicles, 
the common USV and also the extra-large USV which may be a 
variant of the DARPA [Defense Advanced Research Projects 
Agency] Sea Hunter program. Those would be the platforms that 
carry around some of these sensor packages and some of the 
jammers and decoys that we are going to need to deploy in order 
to keep platforms inside these highly contested environments.
    The other thing we can do in the near term is to accelerate 
construction of those ships that are already in construction 
where there is additional margin available. So accelerating 
LXR, as the Congress is already moving toward, accelerating 
perhaps the next LHA; and then in addition to that, we are 
going to have to make some investments in the shipyards in 
order to enable them to further increase production. In 
particular, if you think about Electric Boat up in Connecticut, 
they are largely going to be maxed out in terms of their near-
term industrial capacity with the Columbia class and if we 
tried to do two attack submarines.
    But they have workforce limitations that are going to keep 
them from growing further. There are some facilities 
constraints that just over time that have grown and need to be 
addressed. So putting some money into facilities and a training 
infrastructure so that the shipyards are going to be able to 
bring on the workforce they need to grow in order to start 
doing the construction at the rate that we would need to get to 
a 350-ship or so Navy.
    And then in the mid term, I think the key will be to 
facilitate in the Navy being able to create the kind of network 
infrastructure it is going to need for these unmanned vehicles 
with the sensors and the countersensors to be able to talk to 
each other and then also talk back to their manned platforms 
that are controlling them.
    And so investments in some of the new line-of-site data 
links, improvements to Link 16 that are currently making their 
way into the program of record, those are going to be essential 
in order for us to make our forces able to talk to one another 
in an environment where it is going to be highly contested, 
lots of jamming, loss of GPS [Global Positioning Satellite] is 
likely.
    So Link 16 in particular I think is a capability we need to 
continue to enhance, and there is more room to grow for it.
    Dr. Banerjee. I would just like to elaborate on what Mr. 
Werchado said. I think that in the past it has always been the 
one who strikes first does the most damage. One of the things 
we were looking at is the hypervelocity projectile, railgun, 
and aerial-layer missile system to provide us the capability to 
actually absorb that first hit, minimize the damage to the 
force, and then enable us to have a counterstrike that is both 
powerful and can deliver a powerful blow to the adversary.
    So in terms of things that can be done in the near term, 
further maturation of the hypervelocity projectile, integrating 
new seeker heads into that. If we are looking at actually 
deploying railguns on ships when we think about new ship 
designs, how do we get the 24 megajoules of wall plug power so 
you can fire that thing continuously as opposed to having to 
charge it off of a capacitor. Development and maturation of the 
aerial-layer missile system that can be deployed on either an 
F-18 or the new F-35Cs, or even the Marine Corps F-35 Bravos, 
to be able to provide a long-range ability to intercept really 
advanced hypersonic threats that are coming in towards the 
naval force. That also is going to require an ability to target 
those types of weapons and systems at range and the battle 
management capability to be able to coordinate those types of 
engagements.
    I think in the mid term, building platforms that can 
actually hold those capabilities and operate them in the manner 
we think we are going to have to fight would be the second 
piece. And to the extent that we can leverage work that has 
already been done, if there are designs that are available that 
other navies have that we can quickly leverage and deploy, or 
leverage existing designs for AIP [air-independent propulsion] 
submarines that we can license and then actually build here at 
U.S. shipyards to get the numbers and the capacity that we need 
in the mid term.
    Mr. Wittman. Thank you, Mr. Courtney.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    All of you have mentioned many of the same things as a part 
of your studies, whether it is weapons and/or connectivity or 
command and control or whatever it might be.
    Where are the long poles in the tent for getting all of 
that done? The 2030 array of 240, 340, whatever the number of 
ships you have got, assume a rational progression across all 
those lines of things to be developed. Where are the ones that 
are most likely to give us the most head-scratching or the most 
trouble trying to keep up with all the other things? You can 
put the hulls in or the keels down; you can do that pretty 
mechanically. But all the other stuff you are talking about, 
what are the choke points across that array of stuff?
    Mr. Clark. So, I will jump in there. One thing in 
particular we are finding trouble with is battle management. So 
you can have great data links to be able to communicate with 
all your unmanned vehicles, and they can be off sensing the 
environment, and you can have all these weapons, but the 
problem is that the speed of conflict is going to happen so 
quickly that I need something autonomous to be able to look at 
a threat, decide what it is, decide what the best weapon is to 
address it, and then where that weapon is, be able to send it 
from that platform to address the threat.
    Or on the other side, attack a target that maybe is 
amenable to a particular kind of weapon but not other kinds of 
weapons. But having the battle management to be able to 
coordinate all that information coming in and then be able to 
make a decision as to what to do about it autonomously is a key 
capability that there has been lots of projects going 
individually on, but there has not been anything that has 
totally cracked that nut.
    Mr. Conaway. So if you can't do that, then you have to have 
more ships because you have to have losses associated with--
unable to do that. Where is the break point? Your assessment 
assumes that gets done. And if it doesn't happen, how many more 
ships do you have to have?
    Mr. Clark. So in our assessment, we were pretty 
conservative with regard to our ability to do autonomous battle 
management. So our fleet in some respects reflects the fact 
that you are going to need more manned platforms to control 
unmanned systems that are operating somewhat independently of 
you.
    If you could get more autonomy in your battle management 
system--you think about Aegis system that automatically does 
decision making for you--if you had that and were able to apply 
it across the whole force, you might be able to reduce the 
number of manned platforms significantly down from 350 to 
somewhere in the lower 300s range.
    Mr. Conaway. What about the weapons side, the railguns, 
directed energy, those things, where is the----
    Mr. Werchado. Sir, that one, if I can talk to that, we are 
really taking a two-track approach. Right now there is over 100 
barrels in the fleet that can fire an HVP [hypervelocity 
projectile], and Dahlgren is working together with the Army, 
and they are coming along well on the testing. That one could 
be fielded very quickly.
    Railgun is going to be a lot longer. We have to solve a lot 
of problems: barrel wear, the repetitive rate, you mentioned 
the recharge. So I think the low-hanging fruit is to get HVP 
out as fast as we can. It does really well against cruise 
missiles. It probably doesn't take down a ballistic missile, 
but it would be a huge benefit to us to be able to have an 
interzone cruise missile defense.
    One thing Bryan alluded to is the command and control. We 
have to assume that every time we go out we are going to get 
jammed. We might have people take out our satellites. It is 
always going to be a contested environment. At a minimum there 
will be cyberattacks against our unclass networks. So we should 
only train in areas where we can fight through a limited data. 
So bringing UAVs [unmanned aerial vehicles] to do our own COMMs 
[communications] links, do our own surveillance. Doing that 
organically is going to be huge.
    Mr. Conaway. Dr. Banerjee, are there other things that are 
just wishes that are still in the development process?
    Dr. Banerjee. I agree, I mean, the battle management to be 
able to sort out and make the target weapon pairing, and I 
think the challenge is how do you do that in a highly contested 
environment. And I guess I would say the cyber threat, I think 
there are ways of getting around the jamming, and depending on 
how denied space is through line-of-site relays and other 
capabilities, I think the long pole in the tent is how to do 
that in a highly contested cyber environment.
    I think that was a big concern that we had when we were 
doing the study, and part of the reason we had the classified 
annex to talk to what were some of the threats, and how do you 
actually build a resilient architecture to try to deal with 
some of those threats.
    Mr. Conaway. Chairman--yes sir, Admiral Wilson.
    Admiral Wilson. Yes, sir. I do want to mention an effort 
that is ongoing as we speak. So right now at the Center of 
Naval Analyses, we have a war-gaming tabletop exercise ongoing, 
and it incorporates representatives from all three study teams, 
the Marine Corps, and several other key stakeholders, to really 
look at what are the long poles in the tent, as we look across 
these three future fleet architecture studies, and also to 
identify those key enablers that we will need to fight in 
various scenarios and theaters as it relates to each separate 
study. And we are going to be doing some red-teaming. And 
several of the people here will also be in the room as well.
    And so yesterday was the first day, and so we got a clear 
indication of the cooperation and kind of the open-mindedness 
that we have in discussing these types of issues, and we think 
we are going to get a lot of fruit out of that. We will be able 
to come back and tell you the results.
    Mr. Conaway. I look forward to that. Sounds great. Thank 
you. I yield back.
    Mr. Wittman. Thank you, Mr. Conaway.
    We will now go to Mrs. Davis.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman. Thank you 
to all of you for being here.
    I have been dealing more in personnel these last number of 
years, so this is very interesting, but it just takes a while 
to get it all, and I wanted to thank you for speaking English 
for most of the time. I appreciate it.
    I think, Mr. Werchado, you made the statement, I believe, 
something to the effect that the Navy would have written this 
differently, perhaps focused on different things, and Admiral 
you might speak to this as well. How? In what way? I mean, do 
you think that your experiences are lending a different--these 
reports are lending a whole different view to what is required 
and what kind of capacity we have to deal with it today versus 
down the line?
    Mr. Werchado. Thank you, ma'am. I appreciate the question.
    I would say that the only difference would have been 
because I was, and my team, we were given intellectual freedom 
to look at the range of possibilities. And we aren't geniuses. 
Distributed lethality was proposed by SURFOR [U.S. Navy Surface 
Forces] 2 years ago. We just expanded it to all the fleet 
versus just the surface ships.
    I think what would have happened if it was an official Navy 
study is it would have been chopped by the surface community, 
the submarine community, the aviators, the Marines, and 
everybody would have said I don't play enough in it. So we had 
the freedom to not vet it. I don't think there was any new, 
brilliant ideas that came out of it, but we were able to say 
what is the most effective force to fight a high-end threat, 
not what is the balanced, equal opportunity force.
    Mrs. Davis. Yeah, and part of it too is the parochialism 
which sometimes tends to seep into the discussion. Admiral, 
yes? You smiled when I said that.
    Admiral Wilson. No. I agree with what Mr. Werchado said. 
Now although he had representatives across all those resource 
sponsors, I think the nature of the culture that he developed 
in the study team is that, hey, leave your badge at the door, 
and we are going to be open-minded about this.
    And not only that, the NDAA specified that they weren't, 
you know, encumbered to anchor themselves on programs of 
record, so they didn't have to incorporate any----
    Mrs. Davis. Yeah. How confident are you then that as we 
move forward, that those kinds of recommendations will come 
forward as opposed to having people fall back on some of the 
other ways?
    Admiral Wilson. No, ma'am. I am very comfortable that we 
will get kind of the honest assessment. As a matter of fact, in 
the assessments division, that is kind of our job to be the 
honest brokers on how things should be assessed throughout the 
building cycle of how the Navy resources.
    Mrs. Davis. All right. Anyone else want to comment on that?
    Mr. Clark. Well, as a former employee of the N81 
Assessments Division, I can attest they do very good work in 
there, but in some ways in the Navy you are constrained by what 
it is that the Secretary of Defense is going to use to grade 
your homework.
    So when you send your recommendations up in terms of the 
budget, they have a set of scenarios and objectives that they 
are going to grade that against. And so if we as a department 
have established a set of requirements that are maybe not 
reflective of what the future might really hold, then we may be 
going down the wrong path in terms of our force structure 
decisions, and so by doing it this way, you sort of freed the 
teams to come up with their own assessment of what we think the 
future operating environment is going to be and what may be 
required of naval forces.
    So at least you get a better idea of what I guess the 
operating space might be, like how big a fleet, what kind of 
fleet, what mix of fleet, might be necessary to address the 
future operating environment.
    Mrs. Davis. Do you think that how we prioritize the ships 
and capabilities would be different under that? I mean, there 
is such a range that we are talking about, and we obviously 
don't have unlimited funds.
    Mr. Clark. I think the priorities would be different, but I 
think that there is a fairly limited range of fleet 
architectures that make sense given the great power competition 
we are going to face. And it all comes down to specifics with 
regard to am I looking to deter a certain kind of conflict or 
fight a different kind of conflict, so it kind of comes down to 
exactly what the instantiation of that future threat might be, 
but there is bounds on it.
    Mrs. Davis. I wonder, Doctor, do you see the flexibility in 
what we are looking at as well because we never can quite 
predict that next war?
    Dr. Banerjee. Yeah. As Bryan said, that is always the 
challenge. And I think that is also compounded by the fact that 
with ships they are 30- to 50-year hulls. So even though we are 
looking out to 2030, and I think Mr. Werchado mentioned this at 
the kickoff of the war game, that about 75 percent of the force 
that is going to be there in 2030 is kind of the same ships and 
hulls that we have today.
    So the challenge is how do you adapt that force over time 
to meet these advanced threats and these new challenges within 
the constraints of the fact that the vast majority of the force 
you are going to have in the future is very similar to what you 
have today. So it is a complex problem.
    Mrs. Davis. Yeah. Admiral, quickly.
    Admiral Wilson. Yes, ma'am. I did want to add one 
additional point. Although there were three separate studies 
across the table here, there is not a lot of difference in the 
DNA of the groups here. Bryan even mentioned he used to be in 
81, and so although we are getting different kind of opinions 
in ways of fighting, we are also casting a wider net to what 
else is out there. There are things that didn't show up in any 
of the three studies, new technologies that we get from 
industry or from academia, that may be beneficial and help us 
as well, so we are looking at those things also.
    Mrs. Davis. Okay. Thank you. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mrs. Davis. We will now go to Mr. 
Knight.
    Mr. Knight. Thank you, Mr. Chairman.
    I am going to go back a little bit. I sit on Science, Space 
and Technology. We talk about a couple of these things, but one 
of them is hypersonic weapons. And we have been talking about 
hypersonic for about 65 years in America. And we seem to start 
a program, stop a program, start a program, stop a program, 
collect data, give data to somebody else, wait for the Chinese 
to steal it, and then that is kind of where we are. I would 
like that to stop, and I know that the Navy, we have had 
several admirals in here before that have talked about 
hypersonic weapons and what kind of a game changer that would 
be. I understand HVP is helping quite a bit, but that doesn't 
get us to moving somebody way away because you are now going 
4,800 miles an hour.
    So give me an idea, and I know that we have problems with 
the railgun, and I think that we will continue to have problems 
with the railgun for a very long time just because of the 
nature of what we are working there, and maybe we are just not 
quite smart enough to get through the physics of what the 
railgun brings to us.
    So give me an idea of where we are, what that would mean to 
our fleets. I think I know what that would mean to the Air 
Force, but I also know that that would probably bring a greater 
issue to the Navy than any of the four services, so I will 
start with the Admiral.
    Admiral Wilson. Yes, sir, I concur with your comments.
    I particularly kind of locked on how we talk in open forum, 
and one of the key words that we talked about at the very 
beginning was this is a competition. And when you are in high-
level competition, you are very careful as to what information 
you give your adversary. And so we do need to think more about 
how we do that in the future and not talk about what we can't 
do and what we cannot do and let the adversaries know kind of 
where we are at.
    Mr. Werchado. Sir, I would like to address a particular 
aspect. You mentioned the different weapons and their 
capabilities. Radar resources plays a huge part. I think 
everybody here is aware of the Navy's effort for AMDR, advanced 
missile defense radar, on the Flight III DDG [guided-missile 
destroyer]. I appreciate all the support that program has 
gotten to date, and we look toward to using that against future 
threats, including hypersonic.
    Mr. Clark. So I would add to that that one thing that U.S. 
naval forces have as an advantage potentially is that you are 
co-locating your missile defenses with the target. So if the 
hypersonic weapon is coming at you and you are on the ship and 
you have got some defensive systems, you can still shoot at it 
because it has still got to eventually come to you.
    And so the fact that the hypersonic weapon is going mach 5 
or beyond is somewhat mitigated by the fact that it has to 
eventually arrive at your location. So some of these missile 
defense capabilities that might be very difficult to use in 
defense of somebody else are somewhat effective when you are 
dealing with getting shot at yourself.
    The other thing we have to think about is us using 
hypersonic weapons against the enemy, and there has been a lot 
of work going on in the development of new hypersonic weapons 
that U.S. forces could use. And so that is where I think we 
should be investing more time and effort, because clearly if we 
are worried about the threat coming from Russia or China, there 
is no reason why we wouldn't be able to develop our own 
hypersonic threat, whether it is air launched or potentially 
even surface launched, ship launched.
    Dr. Banerjee. Thank you, Bryan. That is exactly where I was 
going to go. In the MITRE study, we recommended an aerial-layer 
missile system, so that was actually a hypersonic terminal 
seeker to be able to deal with some of the hypersonic threats 
that are coming in and try and engage them at range and 
potentially even at longer range engage those platforms that 
are going to be launching large numbers of antiship cruise 
missiles and other things coming at us.
    So our report talked about how through the aerial layer, 
and then also we talked about a Pershing 3 variant, so the 
[Chinese] DF-21 missile is based off of the Pershing 2. You 
know that is an example of where they have taken our design and 
used it against us. The thought here is to have a Pershing 3 
variant that could be launched from a ship so we could still 
comply with the INF [Intermediate-Range Nuclear Forces] Treaty. 
But that would be now something that they would have to deal 
with, and now they will have to build defensive systems to try 
to figure out how they are going to save their light holes in 
the South China Sea or their ships.
    Mr. Knight. Thank you, Mr. Chair. I yield back.
    Mr. Wittman. Very good. Thank you, Mr. Knight. We are just 
looking. There is a vote that has been called, so we are going 
to try to get through a few more questions here.
    Mr. Knight. That is why I was fast.
    Mr. Wittman. Okay. Thank you. Thank you. We are going to go 
to Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman, and for the 
witnesses, a big thank you. Like Ms. Davis, a lot of this is 
new. I have been on other subcommittees, mostly on strategic 
arms. Some of it seems to intersect here.
    Of particular interest to me is the unmanned vehicles of 
various kind, underwater, surface, and the like. Mr. Werchado, 
you seem to be enamored by these. I would like you to explain 
more completely why and how they fit into the battlefield. And 
also in this context, maybe all of you would like to comment on 
the near term, all of which, of which all of you seem to 
comment on requires defense, electromagnetic defenses, cyber 
warfare, and the like.
    So if you can hit both of those, it would be helpful to me.
    Mr. Werchado. Yes, sir, I would be glad to. It was not a 
pleasant moment, but I had an IPR, a [interim] progress report, 
with our mutual boss, Admiral Richardson, and I used that 
comment about 75 percent of the force still being here in 2030, 
and he said only if I keep buying the same things. And he 
challenged us to see how different we could make our force by 
2030. And you know what, you really can't do that through just 
manned systems. If you want to build things quickly, they have 
to be affordable, and unmanned is a great way to get there.
    So we said if we opened the aperture, what could we do? So 
we gave ourselves some constraints. We couldn't invent a new 
unmanned platform that didn't exist. It had to be either in 
development or based on a current manned platform.
    So we said what do we need to do? We need to have a backup 
to satellites, so we said what kind of surveillance could we 
provide? And we looked at what DARPA was working on, they had 
TERN [Tactically Exploited Reconnaissance Node], excellent 
capability, so we put that on the surface combatants. We wanted 
to make ourselves more offensive, so we looked at the Mark 6 
patrol boat. We said easy to make that into a robot boat. Can 
put four cruise missiles on it without exceeding its 
displacement. So now we have four times the strike capability.
    So we went for niche unmanned capabilities where we needed 
it. We wanted to have the decoy. I don't want a manned ship to 
be the decoy because it will get shot. I used unmanned surface 
vehicles for the decoys so we went after niche capability where 
unmanned was better than manned, and the technology supported 
it.
    Mr. Clark. I would say, sir, in addition to what Mr. 
Werchado just talked about, we looked at using unmanned systems 
as an adjunct to manned systems because they are going to be 
able to give you that longer reach and that greater 
persistence, and operate in environments where you may need to 
depend on them to be your eyes and ears, if you will.
    So large unmanned vehicles like Mr. Werchado talked about 
were essential. A couple of limitations that we found, in the 
work we have been doing with DARPA, one is the sensor 
capability that an unmanned vehicle has is usually pretty 
limited compared to a manned platform, because we want these 
unmanned vehicles to be relatively small and relatively 
inexpensive, so we don't put the very sophisticated sensors on 
them. That means that the brains in them, the autonomy, isn't 
necessarily always going to be able to make the right decision 
because it may not be able to see what is going on around it. 
So you got to network them together to have one maybe one with 
a really good sensor and others that will be able to talk to it 
but that means you have to have these communications that are 
sometimes highly contested in those environments.
    And then the other thing with unmanned vehicles, when you 
think about deterrence and in peacetime how you might use them, 
is they don't necessarily provide the deterrent effect that you 
are looking for in terms of preventing conflict. Not 
necessarily because people don't respect them because there is 
no people on them, but more so because they can't defend 
themselves. So if you are driving around the South China Sea 
and you run up against an unmanned Mark 6 patrol boat, you 
can't have it just start shooting at people that happen to 
wander up to it because in peacetime that is not appropriate.
    So it limits your ability to deter conflict in peacetime if 
you depend entirely on an unmanned solution.
    Dr. Banerjee. I think all three reports, MITRE report 
agreed that unmanned, I think, has a huge role on the undersea 
side, and we were all for having unmanned underwater vehicles 
as a critical enabler. I think our report differed from the 
others in the sense that we deemphasized the role of unmanned 
on the surface and on the air side. I think there is a role for 
it in the air wing that needs to be worked out, but our 
concerns were again from a counter-C4ISR perspective and a 
counter-space perspective, to what degree are you going to be 
able to actually network these types of platforms together and 
use them effectively.
    And then our other concern was from a cyber perspective, 
how well are these platforms going to work in a highly 
contested cyber environment. So MITRE made a conscious decision 
to kind of deemphasize the unmanned on the surface and the air 
side to some extent in our report.
    Mr. Garamendi. [Audio malfunction in hearing room.]
    Mr. Wittman. Thank you, Mr. Garamendi. I am going to go to 
Mr. DesJarlais.
    Mr. DesJarlais. I know we just have a minute before we have 
to leave for votes. I have a quick question, and I will start 
with Dr. Werchado.
    Mr. Wittman. Go ahead and take your full 5 minutes. We are 
going to have some folks coming back so we are going to keep 
the hearing going. So please take your time.
    Mr. DesJarlais. Gotcha, okay. Some advocates have indicated 
a high-low mix of attack submarine assets to include diesel 
submarines. What are the pros and cons associated with a high-
low mix of attack submarines?
    Mr. Werchado. Thank you, sir. Excellent question. I had the 
fortune to be on the Virginia-class analysis of alternatives 
back in the 1990s and we did look at diesels. The problem is we 
don't have the luxury of fighting close to our shore. We play 
an away game. And if I was a country like China, I would buy a 
lot of diesels because I know you are going to come and fight 
me near home. We have to deploy, and the only way to deploy is 
to bring your own fuel with you.
    When we buy a Virginia, it comes with a lifetime of fuel. 
And so I have nothing against diesel submarines, but you have 
to say I am going to be fighting within a few hundred miles of 
where I based them, or else now I have to buy extra oilers. I 
am going to make them vulnerable when I refuel them. They are 
going to have to snorkel. They are going to become vulnerable. 
It is just not an option for us as long as we have to be a 
global navy.
    Mr. DesJarlais. Anybody else have a comment? Doctor.
    Dr. Banerjee. I will take that. So MITRE put that into the 
report. Our concern was on the capacity side and actually 
bringing up the number of attack submarines, I think Mr. 
Werchado pointed out that the diesels are going to have issues 
with the speed of advance and magazine depth. They don't have 
the magazine depth that you are going to have with the Virginia 
and the VPM [Virginia payload module]. But our thought was base 
them forward. Base them in Guam and Japan or the Baltics and so 
they are close to the fight.
    And then when the balloon goes up, flush them out early 
because it is going to take them a while to get there and the 
Virginias and the nuclear submarines that are deploying from 
CONUS [continental United States] or from other locations can 
speed into the AOR [area of responsibility] and get on station 
very quickly.
    Once they are on station, there is something that the 
adversary is going to have to worry about, and so this is a way 
of actually increasing the size of the submarine force 
relatively cheaply because you can buy, you know, our back of 
the envelope math suggests that you can get three diesels for 
the cost of one Virginia, so it is a way of increasing it 
quickly to try to overcome a loss of the Los Angeles class as 
they retire out of the force.
    Mr. DesJarlais. Thank you. That is all I have. I yield 
back.
    Mr. Wittman. Thank you, Mr. DesJarlais.
    Okay. We are going to go to a very brief recess. We have 
sent some members off to vote. They are going to come back. Mr. 
Conaway will take the chair as we head off to vote, so we will 
be back and continue the hearing, so just hang in there with us 
for a few minutes. We are trying to navigate these votes.
    So we will recess briefly.
    [Recess.]
    Mr. Conaway [presiding]. The Chair recognizes Mr. Gallagher 
for 5 minutes.
    Mr. Gallagher. Thank you, Mr. Chairman. There has been a 
lot of talk, by all of you, about the concept of distributed 
lethality, and to quote a fellow Wisconsinite, Rear Admiral 
Fanta, if it floats, it fights, and Mr. Werchado, your study 
goes particularly far in sort of incorporating this concept 
into a distributive fleet, and you sort of claim this with an 
increased independent units capable of offensive operations 
tenfold over the current force.
    In your study, the small surface combatant fleet would be 
20 percent higher than the current 30-year shipbuilding plan, 
48 vessels versus--48 vessels versus 40 vessels. The LCS 
[littoral combat ship], we make it in Wisconsin. I would just 
be interested in your thoughts on the LCS, in terms of 
supporting the concept of distributed lethality in the future.
    Mr. Werchado. Thank you, sir. Admiral Fanta was at--
chairing a meeting I was at this morning. I think there is a 
distinction to be made in our force structure. So we have 28 
LCS. We need those. We use those for mine countermeasure 
missions and antisubmarine warfare missions. We don't trade 
those against other ships. We also have 20 small surface 
combatants. We need those ships. Those would be doing part of 
the antisurface battle network.
    So we have requirement for 48 small combatants. Twenty-
eight, which is the number that we have currently under 
contract for LCS, we need every one of those. We also see a 
need for 20 more of the small surface combatant to extend our 
distributed lethal network. So I just wanted--it is not 48 of 
the same ship.
    Mr. Gallagher. Uh-huh. Well, on that point, Mr. Clark, I 
would ask you to talk about this. Is there a need for a more 
survivable and lethal frigate than is now being considered by 
the Navy acquisition strategy, or what requirements need to be 
built in that don't currently exist in the LCS program as we 
look towards a frigate of the future?
    Mr. Clark. Yes. Thanks, Congressman. So I think we 
definitely recommended a larger, more survivable, and more 
lethal frigate going forward. So in our fleet architecture, we 
recommended that the Navy continue to build the LCS and the 
frigate version of the LCS unless that design is ready to be 
built, which we anticipate it not happening until the 2020 
timeframe, and then we would transition to that frigate.
    We think the essential capabilities needed in that frigate 
are the ability to do air defense for another ship so it could 
do an escort mission, which we saw in our analysis as being an 
increasingly important mission for a situation in which our 
logistics forces and civilian convoys and noncombatant ships 
are going to be at risk of being attacked by an enemy that is 
willing to go all out and attack civilians as well as attacking 
just strictly military ships.
    So we saw the need to have the ability to do air defense of 
another ship as being essential. The other thing it has to be 
able to do is antisubmarine warfare, and in particular, using 
new antisubmarine warfare [ASW] concepts that will leverage 
things like the variable depth sonar that the LCS mission 
package has, and the medium--or the multifunction towed array, 
which the LCS mission package has as well.
    What those capabilities do is allow us to transition from 
having a strictly, you know, man-on-man or single-ship-on-
submarine kind of ASW to now do multi-static ASW where multiple 
ships can look for multiple submarines, and then we need 
standoff weapons to be able to engage those submarines rapidly, 
which could be from a TERN type of unmanned vehicle that an LCS 
or a frigate could deploy.
    But those capabilities that we need in that frigate end up 
requiring a ship that is larger than the LCSs that we currently 
are building.
    Mr. Gallagher. And Dr. Banerjee, you seem to--is it fair to 
say you disagree kind of with both those approaches. Your 
report argues for the cancellation of the program. Have you 
done any analysis of what that would do to the defense 
industrial base, because I am sure you know this isn't sort of 
turn it off and turn the spigot on somewhere else. I mean, this 
is years of developing a skilled workforce and improvements and 
efficiencies that happen every single day to make it more 
affordable.
    Dr. Banerjee. Roger that. To the first part of the question 
that we agree with CSBA, I think we agree that it has to be a 
larger frigate, larger size. We did look--and we were looking, 
again, at an area of air defense, antisurface warfare 
capability that was built around the hypervelocity projectile, 
launched out of a 5-inch gun, I mean, the first part of 
analysis that we did was to look at, okay, what kind of frigate 
designs do that. It turns out there was a Garcia-class, you 
know frigate, you know back in the 1980s that was a 35, a 100 
ton, so it is about LCS size that had two 5-inch deck guns. The 
naval architect that was on our team didn't think that that was 
something that was--although it was done back then, that it was 
something that was doable today.
    So we actually recommended something that was a larger 
size. I think we looked at a German, you know, F-125, which is 
a 7,200-ton, you know, frigate design that had the two deck 
guns, could get you some VLS cells as well as EW [electronic 
warfare] capabilities and decoys and things you would need to 
make that a much more robust and survivable ship within this 
particular threat environment.
    Now, the question in terms of whether or not that could be 
built in those shipyards and whether those yards could be 
expanded to handle a larger ship size----
    Mr. Gallagher. Uh-huh.
    Dr. Banerjee [continuing]. That wasn't something that we 
looked at. What we did think about was whether it would be 
possible to actually potentially license a design to try to 
actually get something built sooner. If it is a design that 
could be licensed and then manufactured at, you know, either or 
both of the existing LCS shipyards and what modifications that 
they would have to do at the yards to be able to do that, we 
didn't actually look at that.
    The other potential option--I mean, we did also talk about 
a couple of different alternatives for the amphibious force. 
One of that would be, you know, an option to build a smaller--a 
number of smaller platforms for the new dock ship. Now, I know 
since the study came out, there--I think there has been a 
decision as to what that design is going to be, but if the Navy 
and Marine Corps wanted to go down that road, then that could 
potentially be another ship that is built within the existing 
shipyards and facilities.
    Mr. Gallagher. Thank you, gentlemen, for your work. Mr. 
Chairman, I yield back.
    Mr. Conaway. The gentleman's time is expired.
    Mr. Norcross, 5 minutes.
    Mr. Norcross. Thank you, Chairman, and hopefully you didn't 
address this while I was gone voting, but I hear more diverse, 
spread our risk out, hidden, unmanned. Tell me how our aircraft 
carriers fit into this new world and new vision that you have 
been talking about? So start right with the admiral, work our 
way down.
    Admiral Wilson. Well, sir, I would like to defer to the 
study team leads and let them explain how they incorporated our 
existing carriers and how they are planning on using either an 
America class or some alternate carrier in the future force.
    Mr. Norcross. Thank you.
    Mr. Werchado. Thank you, Admiral. I think one of the key 
parts of our study that really hasn't gotten the visibility is 
the synergy that you can have between a large aircraft carrier 
like a Nimitz or a Ford and a big deck amphib. One thing that 
doesn't get publicized too well is the Marines are far ahead of 
the Navy in terms of fielding fifth gen fighters.
    The F-35 Bravo will be out in numbers before the F-35 
Charlie is, so the big deck amphib, which can host up to 23, 35 
Bravos, you probably wouldn't want to deploy that many for 
operational reasons, but it could host say 20, it could go to 
sea and provide 2 extra squadrons of fifth gen fighters which 
the Navy couldn't field until 2026 at current acquisition 
plans.
    However, it can't carry AEW, advanced early warning, 
airborne early warning, it can't have electronic attack, so you 
wouldn't want it to be out by itself. But if you put it out 
with the big deck carrier, there is a win-win because now the 
carrier air wing has fifth gen squadrons earlier and the L-
class ship affords the protection from the E-2s and the 
Growlers that are on the big carrier.
    So when we said we had so many more combat nodes, when we 
deploy for combat, we send carriers out in twos. The reason for 
that is you have to have 24/7 flight ops and you have to have 
down time on the flight deck. So if I have to send my carriers 
out in twos, I can cut the number of strike groups in half that 
I can send to war. If I pair them up with big deck amphibs, I 
am back to each carrier can be a strike group with an L-class 
ship next to it.
    Mr. Norcross. But the point I am trying to make is they are 
larger, you are not going to hide them. If it does break out, 
what are the chances of that surviving the first 10 minutes of 
any conflict?
    Mr. Werchado. It is large, sir, and it is hard to hide, but 
it also hard to find. Remember, it is mobile. And so, big 
Pacific Ocean. I can know a carrier is there, but I have to get 
its location within the acquisition circle of my missile, and I 
have to transmit that data to a firing unit before that circle 
grows. You know, at 30 knots, I know where your carrier is 
right now, go call the missile shot, get them to shoot 
something. Every minute that circle is growing area of 
uncertainty because the carrier is doing 30 knots.
    And so what you really want to do is say you may know I 
have a carrier there but you can't solve the firing solution 
and you can't launch on it, and so all those things we have 
been talking about, the decoys, electronic warfare, the cyber, 
that is to keep the uncertainty. They may know we have a 
carrier out there, but unless they can put a weapon on it, it 
doesn't help.
    Mr. Norcross. Thank you.
    Mr. Clark. So one thing I would say in addition to that is 
it also depends on how you use your carrier. If you use your 
carrier as the front line of defense and deterrence, then you 
are putting it into an environment where it is much more likely 
to be found, targeted, and shot at. And what we found in our 
analysis is not so much that the carrier gets sunk, is that its 
operations get suppressed because it is driving around trying 
to avoid being shot and it is not able to launch aircraft, and 
therefore, it is not really doing its job.
    So what we did in our fleet architecture study is we took 
the carriers, which are very good at delivering combat power at 
moderate levels for a really long period of time, and moving 
them outside that immediate area of the conflict where things 
might start. So you think about the South and East China Seas 
in the Western Pacific, and we put the distributed forces that 
we have been talking about inside that area because they have 
missile-based fires that are much faster and can be delivered 
in high volume for a short period.
    So in a war, these distributed forces we are talking about 
are likely to use up all their weapons relatively quickly. So 
within a few days, they might be out of ammunition and have to 
sort of withdraw, or they get attacked and sunk. So we need 
somebody to be able to flow in behind them to be able to 
continue the fight once those distributed forces have to start 
withdrawing, and that is what the carrier strike groups are 
able to do.
    One, they are a little bit farther away as they are able to 
maneuver and take advantage of the larger space they have at 
their disposal, so they are harder to find, and they are also 
then coming in at a point where we maybe started to attrite the 
enemy a little bit and reduced his ability to launch large 
salvos at the carrier.
    So separating the force into these forward forces and this 
larger carrier-based force enables you to take advantage of 
what both do really well and minimize the chance that the 
carrier will be suppressed.
    Mr. Norcross. But you also have to keep them outside of the 
range so that they are not going--they are going to stay out in 
the North Atlantic in case the Balkans--are particularly when 
we are dealing down there.
    Mr. Clark. Right. So they stay outside the immediate area 
of the conflict so they could still be attacked by some small 
number of very, very long-range weapons, but you don't put them 
in the place where necessarily they are going to be able to be 
hit by large numbers of shorter range weapons.
    Dr. Banerjee. In the MITRE study, we talked about using the 
hypervelocity projectile to deal--you know, basically use the 
surface combatants to protect the carrier from the cruise 
missile threats, and we also talk about an aerial air missile 
system to try to engage the more capable hypersonic threats, as 
well as trying to actually shoot down the bombers and the 
strategic aircraft that they are going to launch those things 
off of at range.
    So we use that to try to protect the carrier and provide 
kind of a layered defense that is more robust and can be 
layered on top of the existing standard missile systems and the 
existing point defense systems within the strike group.
    To get to the unmanned question, I think the interesting 
question there is if you are on a combat air patrol where you 
are trying to perform this mission, that is actually a fairly 
nice role to actually have for an unmanned system because they 
can stay up there for a long period of time and it is a 
relatively boring job for a fighter jock to do, but then 
actually slave the fire control for that system back to either 
the E-2D or back to an Aegis combatant to actually perform--you 
know, put that cap up while you are not conducting large-scale 
flight operations. It is an interesting potential role for 
unmanned systems for a carrier defense.
    Mr. Norcross. Thank you. Yield back.
    Mr. Wittman [presiding]. Very good. Thank you, Mr. 
Norcross. We now go to Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. Thank you, 
gentlemen, and if I ask any of the same questions, please 
excuse me. I am coming from a vote.
    So this is for Rear Admiral as well as Mr. Werchado. I am 
sort of confused as to what the right number is for you for the 
Navy because the FSA [Force Structure Assessment] in December 
2016 said 355 and some of you are concurring or nodding to 355; 
but in your report, you seem to go to a total of force, 57; 
manned, 321, which is a force of 355, that number; and 
unmanned, 136. So what is the number? What is Navy's position?
    Admiral Wilson. Yes, ma'am. Let me clarify a little bit, 
and I mentioned this earlier, but as you mentioned, you may not 
have been in the room then. Three fifty-five was the results of 
the Force Structure Assessment.
    Ms. Hanabusa. Uh-huh.
    Admiral Wilson. And that relates to current programs of 
record, current platforms that the Navy has using current 
warfighting concepts and keeping things fixed such as our 
strategic laydown that we currently have.
    Now, that is the foundation and the baseline for where we 
need to go in the future. So right now that number is 355, but 
as we look to future fleet architectures, different concepts of 
fighting, different platforms, so within that 355 number, there 
are no unmanned platforms.
    So if you look at how you are fighting in a more 
distributed fashion, how your forces are more netted and 
integrated, now you can, you have an opportunity to replace 
some manned platforms with some unmanned platforms, for 
example, and some other things that are--have different 
technologies, and then you are going to fight those things a 
different way. So that number will look different.
    One of the things that drives us to do a Force Structure 
Assessment is change in strategy, change--a significant change 
in programmatics. This is one example if you are going to a 
more unmanned kind of centric force, and significant changes in 
the threat, and that is what drove the 2016, significant 
changes in the threat and there was a change in the strategy, 
that is what drove the increase of the number. Any of those 
changes that happen in the future, it will change the number 
again. We will do another Force Structure Assessment, and it 
will reflect what a future force would need to look like.
    Ms. Hanabusa. I understand that, but the problem with doing 
that is that if you--we can't, and then basically the 
industrial base can't switch that simply. So for example, one 
of the things that I noticed, which is dear to Hawaii, is the 
fact that where everyone else seems to agree that the Virginia-
class attack sub should be around 66, one of you is higher than 
66, you are not, and in terms of the Navy system is not.
    The FSA is at 66, and we are also at the same number, I 
believe, in the Columbia-class subs, so it seems to me that one 
of things that I would like to know, first of all, is who do 
you--who do you perceive to be the, quote, enemy that you have 
to fight? Because if it is Russia and China, as many of you 
allude to or actually state, then we shouldn't have this kind 
of a discrepancy in my mind.
    We should have some understanding of, one, where is that 
force going to be? Is it going to be in the Pacific? Is it 
going to be under the Arctic? Or is it going to be in the 
Atlantic? So if you could--one of you could answer that.
    Mr. Werchado. Yes, ma'am. I think there is an apparent 
disconnect that isn't. So Admiral Wilson said he looked at 
manned platforms in the Force Structure Assessment. He gets 66. 
MITRE looked at a mixture of nuke and diesel and if you add the 
two. We had 53 SSNs [nuclear attack submarines], but we also 
had 48 large displacement UUVs [unmanned underwater vehicles], 
so whether you do it all through manned, through manned nuke 
and manned diesel or manned nuke and unmanned diesel, I think 
what you are really talking about is a capability.
    And I love the fact that you went from asking about the 
total force structure number to the individual submarine 
number. Inside the Pentagon, we never say 313, 325, 355 because 
it is a not meaningful number. We say how many carriers do I 
need, how many amphibs do I need, how many submarines do I 
need. That is where the discussion really should take place. 
Thank you, ma'am.
    Ms. Hanabusa. So what about my question about where is the 
threat? I assume all of this is driven by where is the threat? 
So it has got to be some assessment on all of your parts as to 
who or where is that threat.
    Mr. Werchado. In order to keep it unclassified, we 
specified we would take--be able to handle a high-end threat 
with large anti-access capability. My colleague named two 
countries that I wouldn't disagree with.
    Ms. Hanabusa. Somebody named them. I read it.
    Mr. Werchado. Yes, ma'am. I can. But while doing that, 
deter anyone else. So that could be the next level tier of 
country. So if you can handle one of the big ones, you should 
be able to handle one of the medium ones and keep them 
deterred. That is [inaudible] our construct.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Mr. Wittman. Thank you, Ms. Hanabusa.
    We will now go to Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chairman. Up until December 
31, I was just a small-town lawyer trying to make good, and now 
I am trying to learn all these newfangled concepts, and 
Admiral, you and I had a discussion the other day and I went 
and did a little research and it turns out that I think we are 
working under the assumption that we have to fight at least 
two--we need to be prepared to fight two significant conflicts, 
maybe with a non-state actor, maybe one with a state actor, and 
that is what drives our preparedness numbers, and that what 
drives presumably this 355 number with some variation.
    And then I see my President propose this $54 billion to be 
added in investment to defense, and then he flies down to the 
south side of my district into Newport News, stands on a 
carrier and starts talking about how wonderful this amount of 
money is for building up our, presumably, our Navy. That is 
certainly the implication.
    And then I start hearing all these whispers about, well, 
the $54 billion really isn't all for the Navy. It is for, you 
know, most of it, quite frankly, is going to the Department of 
Energy for our nuclear weapons systems. I don't know if any of 
that is true. I don't want to deal with alternative facts. If 
anybody at this table knows, how much of that $54 billion would 
actually be going to building ships, hopefully, out of Newport 
News and Connecticut and maybe elsewhere, too, but how much of 
that $54 billion will actually be going to building ships?
    Admiral Wilson. Yes, sir. I can't comment on specifically 
how much money would be going towards building ships, but some 
of that money will go towards making the current force whole, 
and some of it will go towards ramping up and building the 
ships; but specific dollar figure, I can't give you here.
    Mr. McEachin. I appreciate that, and thank you for gently 
chiding me in that fashion. To the extent that you can comment, 
does any part of that $54 billion put us on track to get to 
that 355-ship level, because I have got a whole bunch of folks 
who are looking for work in Virginia, in Virginia's Fourth 
Congressional District, and they are mighty excited. But I am 
hearing things to say we need to slow down, we are not going to 
get there too quickly with that number.
    Admiral Wilson. No, absolutely. Congressman, we will be--
well, there is efforts ongoing right now to see what we can do 
to ramp up in the industrial base where we can and start moving 
quickly to that 355 number for platforms that we know we are 
going to need.
    Mr. Werchado. Yes, sir. Also, the Secretary of Defense 
indicated his priority would be first restoring readiness, 
fixing holes in the programs, and then growing force structure. 
I would just point out that a lot of restoring readiness means 
Norfolk Naval Shipyard because we do have to do the repairs to 
those ships to get them back out, so I would expect a lot of 
the investment would be going to increase the rate of overhauls 
and the capacity to do overhauls.
    Mr. Clark. Also keep in mind that the ship maintenance 
industrial base would benefit from some of this money going 
into readiness because right now all of our surface combatants, 
all of our amphibious ships get maintained at private 
shipyards. There is a bunch at Norfolk, there is a bunch along 
the East Coast, and so there is a lot of workers that are going 
to be brought in to help with that because that is where a lot 
of our expansion volume is, if you will, in the ship 
maintenance industrial base.
    Mr. McEachin. If you care to comment. You don't need to 
feel compelled.
    Dr. Banerjee. No. I don't know where that $54 billion is 
going. I don't have anything to say on that.
    Mr. McEachin. Thank you, Mr. Chairman. I yield back.
    Mr. Wittman. Thank you, Mr. McEachin. I just wanted to let 
you know, too, we have asked the Congressional Budget Office to 
outline for us the pathway to get to 355 ships in a 15-, 20-, 
25- and 30-year scenario. So we will have some additional 
information for the committee as far as the pathway there so it 
will give you a little more information to go on.
    Mr. McEachin. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you. Thank you. We will now go to Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank the 
panel for your testimony here today. Admiral, thank you for 
your service and all of you, good work that you do in behalf of 
our Nation. Thank you for your work.
    Admiral Wilson, Mr. Werchado, so I am a long-term member of 
this subcommittee, and I am very proud to represent Rhode 
Island's Second District where we begin the build process for 
our Nation's submarine fleet. So I--I have to, say, though, I 
am frustrated that such a dramatic increase to our naval fleet 
from 274 to 355 ships in the future was announced so quickly it 
seemed without very little conversation.
    So can you discuss with the subcommittee the decision-
making process that took place prior to this announcement and 
what factors were most heavily weighted, and how are you 
preparing to move forward now with this plan? I think it caught 
a lot of people off guard that it happened so quickly, and I 
have been around here for awhile, and to see that kind of a 
dramatic shift so quickly was surprising, so----
    Admiral Wilson. Yes, sir. I think you are referring to the 
announcement of the 355-ship Navy?
    Mr. Langevin. Yeah.
    Admiral Wilson. I would answer that by saying that our 
study was complete, and we had briefed leadership, and so once 
you have a completed study and you brief leadership, leadership 
then has--it is their prerogative on whether they want to go 
public with it or not, and the Secretary of the Navy chose to 
go public with that information, which was complete at the 
time.
    Mr. Langevin. Thank you. Mr. Werchado, do you want to add 
anything?
    Mr. Werchado. No, I think that covered it. I would just 
point out that the work for the FSA actually started under 
Admiral Wilson's predecessor, Admiral Mercado. It took us about 
almost a year, so we had to go out to all the fleet component 
commanders and the COCOMs [combatant commanders] and find out 
what their demand signal was, we compared it to the results of 
our campaign modeling the analysis we do for the war plan, so 
it was an involved process. It may have seemed overnight based 
on the speed of the roll-out, but again, that was SECNAV 
[Secretary of the Navy] determined. We had been working pretty 
much since last January on it.
    Mr. Langevin. Okay. All right. Thank you. Dr. Banerjee, so 
I--I see that the MITRE study included the addition of an 
electromagnetic railgun onboard a new frigate and supplemental 
platforms.
    So I have been a long-time advocate for things like 
directed energy and high-velocity projectile technologies, and 
I understand that high-velocity projectiles have been discussed 
today already, but did you evaluate directed energy 
technologies outside of railgun in your study? If not, why not.
    Dr. Banerjee. No, we didn't look at things like the solid 
state laser technology maturation [SSLTM] program and some of 
the other systems that are out there. I think our thought, 
those are interesting technologies, technologies we should 
continue to invest in. I think that there is still that 
capability there potentially from--a counter-C4ISR perspective, 
but our thought was that the hyper-velocity projectile was 
further along and something that was, at least when launched 
from a 5-inch deck gun, could be deployed within the existing 
force.
    In terms of the railgun, our thought was, if practical, if 
you could put the power plant in to be able to operate it in 
the new frigate design, that would be great. The other option 
that we had put forward was potentially in the magazine ship 
concept, if you are actually going to put VLS cells and other 
capabilities into a commercial hull, in a commercial hull, you 
can buy containerized power plants that could deliver that type 
of power for a railgun and you could drop them in and that 
might be the quickest way to actually get something like that 
to the fleet.
    We were focused on what could be done in the next 10 to 15 
years, and I think our concern is, although I know SSLTM and 
other capabilities are moving forward, we just weren't sure you 
were going to get the power level out of those systems to have 
effects against the types of systems that we are worried about.
    Mr. Langevin. Okay. All right. And I would just point out 
that the--we do have a 30-kilowatt laser right now on the USS 
Ponce that is in theater. We don't have a railgun in theater 
yet. I know it is only 30-kilowatt, but we are certainly 
experimenting with an actual platform.
    Dr. Banerjee. Yeah. So for that, I mean, to go against a 
FAC/FIAC [fast attack craft/fast inshore attack craft] type 
threat or small boat threat, or a UAV threat, I think you can 
get away with it.
    I mean, the question is though when we are talking about 
the South China Sea and dealing with those type--the types of 
platforms that they are going to launch out at us and the 
ranges that we are going to be operating at is that what impact 
is it going to have in that particular fight.
    Mr. Langevin. Okay. Did you want to add something?
    Mr. Clark. Yeah, Congressman, I will rise in defense of 
directed energy. But we included in our study both solid state 
laser, because in the 2030 timeframe it is completely realistic 
to think that you could have a 150- to 300-kilowatt laser that 
you could use.
    And then also, high-powered radio frequency or high-powered 
microwave could be an effective technology in that timeframe, 
so we included both in our study.
    Mr. Langevin. Thank you. I have another question I would 
like to submit for the record, but I know my time is expired, 
so I will yield back.
    Mr. Wittman. Thank you, Mr. Langevin. We appreciate our 
witnesses here.
    We do have to get down to the floor and vote on fiscal year 
2017 Department of Defense appropriations, so I think we want 
to make sure we get down there and do that.
    So I want to thank our witnesses for joining us today. We 
deeply appreciate your perspectives, and we will continue the 
conversation about future fleet architecture.
    Thanks again, and we are adjourned.
    [Whereupon, at 5:10 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 8, 2017


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 8, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 8, 2017

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. To all witnesses--I am concerned that parts of these 
studies seemed to take place without any regard to funding feasibility. 
Were budgetary realities used as a qualifier across your studies? And 
what do you recommend, or what would you implement, as far as cost-
savings measures go so that we are ensuring our dollars are spent 
effectively without having to cut other critical programs across the 
Department as well as the whole of government?
    Admiral Wilson. Each of the studies used their own base assumptions 
and were not directed to be constrained by current year budgetary 
realities. As we start to determine best practices from the study 
recommendations and other discoveries from our wargaming and 
experimentation exercises then these results will have to compete with 
other Navy programs within the Navy's TOA. Once we determine what our 
funding levels are then we will balance our acquisition strategy 
against acceptable risk to best meet warfighting demands.
    Mr. Langevin. To all witnesses--I am concerned that parts of these 
studies seemed to take place without any regard to funding feasibility. 
Were budgetary realities used as a qualifier across your studies? And 
what do you recommend, or what would you implement, as far as cost-
savings measures go so that we are ensuring our dollars are spent 
effectively without having to cut other critical programs across the 
Department as well as the whole of government?
    Mr. Werchado. The NDAA Language did not specify if the 
architectures were to be constrained or unconstrained fiscally. Our 
original analysis did place due regard on funding feasibility. We used 
current projected funding levels from the actual shipbuilding, aircraft 
and weapons funding account (SCN, APN and WPN) out to 2030 and then 
removed that funding, except for COLUMBIA Class SSBN, which was 
considered mandatory to fund. With those three accounts providing an 
asset, we funded our recommended concepts of operation--Distributed 
Fleet Lethality, Electromagnetic Maneuver Warfare, and Distributed 
Agile Logistics. After the enablers for warfighting were funded--the 
sensors, communication systems, and weapons--we assembled the manned 
and unmanned platforms to populate the fleet architecture with a focus 
on fighting a major conflict. Later, when we saw preliminary drafts of 
MITRE and CSBA's reports we realized that we need not constrain 
ourselves to accept that much risk, so we went back and added assets to 
the deterrence/presence force. The Navy FFA leverages emerging 
technologies and operating concepts, including unmanned systems, in 
accordance with the NDAA direction to consider ``opportunities for 
reduced operation and sustainment costs'' and the ``role of evolving 
technology on future naval forces, including unmanned systems.''
    Mr. Langevin. To all witnesses--I am concerned that parts of these 
studies seemed to take place without any regard to funding feasibility. 
Were budgetary realities used as a qualifier across your studies? And 
what do you recommend, or what would you implement, as far as cost-
savings measures go so that we are ensuring our dollars are spent 
effectively without having to cut other critical programs across the 
Department as well as the whole of government?
    Mr. Clark. The tasking in the 2017 NDAA required the Navy conduct 
fleet architecture studies to idenitfy the required size and shape of 
the future fleet and develop a plan to implement it, including 
associated costs. The Fleet Architecture study conducted by the Center 
for Strategic and Budgetary Assessments did take funding into account. 
We built a shipbuilding plan to describe how the Navy could reach the 
fleet size and mix we recommend. Using models from the Navy and the 
Congressional Budget Office, we developed estimates for the 
shipbuilding and operations and maintenance costs associated with our 
shipbuilding plan and fleet architecture. We constrained the 
implementation of the future fleet by the capacity of the shipbuilding 
industrial base. To account for funding feasibility, we also 
established an upper limit of 20 percent for the increase in the 
shipbuilding and operations and maintenance costs associated iht the 
proposed fleet architecture. These two limitations resulted in the 
shipbuilding plan we proposed in our study. We did not incorporate two 
approaches into our study that the Navy should consider to reduce costs 
associated with growing the fleet. First, the Navy could procure and 
build ships faster to maintain the shipyards at a more efficient pace. 
For example the Navy recently reported it could save tens of millions 
of dollars per ship by building two T-AO(X) oilers per year instead of 
only one. Similarly, Huntington Ingalls Industries assesses it could 
save hundreds of millions of dollars per ship if the Navy purchased 
aircraft carriers (CVN) at three-year intervals, rather than every 5 
years as they are today. These cost savings result from the shipyard 
being able to maintain workers on the same job in the shipbuilding 
process for each ship. If ships are started less frequently, workers at 
the beginning of the shipbuilding process, such as shipwrights, will be 
idle between ships. During that interval they loose proficiency and 
need to be repurposed in other jobs for which they are not as well-
trained. The other approach the Navy could use ot reduce costs is to 
expand the number of multi-year procurement (MYP) contracts it uses, 
even for larger ships not normally bought using this method. MYP 
contracts allow the Navy and shipbuilders to purchase materials and 
equipment in larger quantities for a group of ships, which normally 
results in savings of 10 percent or more per ship. The Navy could 
expand the use of MYP contracts to CVNs, amphibious assault ships (LHA/
LHD), or the new amphibious transport dock (L(X)R). The Navy could also 
reduce its shipbuilding costs by keeping some ships in service longer 
to allow new construction to be reduced. For example, the Navy's guided 
missile cruiser (CG) phased modernization plan will keep CGs in the 
fleet until the 2030s and enable the Navy to reduce guided missile 
destroyer (DDG) construction. Some amphibious landing docks (LSD) that 
will start retiring in the next decade could also be modernized again 
and retained in active service to conduct lower end missions. Although 
this may not alleviate any new construction of more capable ships, 
these ships may enable the Navy to fill gaps in the current fleet to 
conduct missions such as training and maritime security. Overall, the 
Navy will need decades to reach the fleet size and mix it needs to 
address the emerging security environment. A larger fleet will cost 
more to procure and operate than today's fleet. How much more, 
ihowever, is dependent on how much money the government is able to 
allocate toward this priority. Because the fleet buildup will take 20-
30 years, there will be ample opportunity for this Congress and 
Administration, as well as future ones, to adjust the pace of building 
in concert with the government's fiscal situation. The most important 
consideration now is to simply start the process of growing and 
evolving the fleet.
    Mr. Langevin. To all witnesses--I am concerned that parts of these 
studies seemed to take place without any regard to funding feasibility. 
Were budgetary realities used as a qualifier across your studies? And 
what do you recommend, or what would you implement, as far as cost-
savings measures go so that we are ensuring our dollars are spent 
effectively without having to cut other critical programs across the 
Department as well as the whole of government?
    Dr. Banerjee. Budget instability forces the Navy to make 
acquisition decisions that undermine affordability initiatives. By the 
end of 2016, the national debt will be $20 trillion dollars--more than 
triple what it was on 11 September 2011--and for the last four years, 
the Navy has been operating under reduced top-lines and significant 
shortfalls. There will likely continue to be increasing pressure on the 
procurement accounts, which in turn threatens the near-term health of 
the defense industrial base.
    The MITRE study assumed the Navy will receive historical levels of 
funding and will not be subjected to further Budget Control Act or 
sequestration actions. All cost estimates were based on analyses 
reported by the Congressional Budget Office, with rough extrapolations 
to estimate the cost of the new ship classes proposed. More detailed 
cost estimating is required for all options recommended by our study. 
Admiral Zumwalt outlined a high-low concept in 1962 that is still 
relevant today. The only means of achieving both effectiveness and 
capacity, within the constraints of expected budgets, is to build 
varying amounts of exquisite (i.e., high), capable (i.e., moderate), 
and expendable (i.e., low) platforms. MITRE's recommendations for the 
numbers, kinds, and sizes of ships leverages this high-medium-low force 
mix concept, with several focused investments, to deliver a force that 
is more effective, has increased capacity, yet is affordable.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. With a potential greater reliance on unmanned assets 
and networked defense playing a greater role there is a greater risk 
for cyber intrusion. Can you address how the Navy is working to ensure 
the command and control networks of these assets will be hardened 
against cyber intrusion while allowing communication with the Joint 
Force and potentially our allies?
    Admiral Wilson. Navy understands the requirements for resilient 
communications pathways and the increasing dependence of that 
resilience on defense in cyberspace. Navy continues to architect our 
systems--from platform sub-components up through Fleet Command and 
Control structures--to provide resilience. Navy's TENTH Fleet has 
engaged in active defense of our networks to date. In fact, Mr. 
Stackley and the VCNO have signed a Joint Memo recently mandating cyber 
standards to which all systems will be held accountable. From these 
experiences, Navy has aligned cyber defense of afloat missions, to 
include hardening of critical platform networks, defending key cyber 
terrain and the deployment of Service-aligned cyber protection teams. 
To assure mission success of current and planned unmanned vehicles, 
Navy is investing in specifically designed command and control 
architectures featuring multiple pathways, hardened communication 
designs and supported by cyber hardened platforms linked to active 
defense capabilities.
    Ms. Bordallo. With a potential greater reliance on unmanned assets 
and networked defense playing a greater role there is a greater risk 
for cyber intrusion. Can you address how the Navy is working to ensure 
the command and control networks of these assets will be hardened 
against cyber intrusion while allowing communication with the Joint 
Force and potentially our allies?
    Mr. Werchado. Within the context of the Future Fleet Architecture, 
defense of unmanned vehicle (UV) command and control (C2) structures 
and against cyber intrusion are provided through orchestrated 
investment strategies (Assured C2 and Cyber Resiliency). These 
strategies harness multiple programs of record (PoRs) that allow for 
robust communication pathways to support necessary assets as well as 
defend our platforms in cyberspace. These strategies capitalize on 
investments in platform cyber defense to provide networked, automated 
defense capabilities which will permit active cyber defense measures 
that provide resilience for Navy C2.

                                  [all]


</pre></body></html>
